<html>
<title> - [H.A.S.C. No. 114-93] ASSESSING THE DEVELOPMENT OF AFGHANISTAN NATIONAL SECURITY FORCES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







 
                         [H.A.S.C. No. 114-93]

                       ASSESSING THE DEVELOPMENT

                        OF AFGHANISTAN NATIONAL

                            SECURITY FORCES

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 12, 2016


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
  
  
  
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 
  
98-960                         WASHINGTON : 2016 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                       Washington, DC 20402-0001






















              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

JEFF MILLER, Florida                 JACKIE SPEIER, California
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
JOSEPH J. HECK, Nevada               HENRY C. ``HANK'' JOHNSON, Jr., 
AUSTIN SCOTT, Georgia                    Georgia
MARTHA McSALLY, Arizona              GWEN GRAHAM, Florida
                 Heath Bope, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                          Abigail Gage, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     3

                               WITNESSES

Abizaid, Christine S., Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan and Central Asia.........................     4
Breedlove, Kent A., Senior Defense Analyst-Afghanistan, Defense 
  Intelligence Agency............................................     9
Child, Michael S., Deputy Inspector General for Overseas 
  Contingency Operations, Department of Defense..................    13
Michael, COL Stephen, USA, Joint Staff J5 Transregional Threat 
  Coordination Cell..............................................     7
Sopko, Hon. John F., Special Inspector General for Afghanistan 
  Reconstruction.................................................    11

                                APPENDIX

Prepared Statements:

    Abizaid, Christine S.........................................    37
    Breedlove, Kent A............................................    60
    Child, Michael S.............................................    80
    Michael, COL Stephen.........................................    50
    Sopko, Hon. John F...........................................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................    99

Questions Submitted by Members Post Hearing:

    Mrs. Hartzler................................................   103
   ASSESSING THE DEVELOPMENT OF AFGHANISTAN NATIONAL SECURITY FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                         Washington, DC, Friday, February 12, 2016.
    The subcommittee met, pursuant to call, at 10:32 a.m., in 
room 2118, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Welcome. I am delighted to convene this 
hearing. This is a very important topic and one I know that 
Ranking Member Speier finds especially significant. I am happy 
to partner with her in exploring this subject.
    I also note that the gentleman from North Carolina, Mr. 
Jones, is attending the hearing with us today. Therefore, I ask 
unanimous consent that Mr. Jones and any other committee 
members not assigned to this subcommittee be permitted to 
participate in this hearing with the understanding that all 
subcommittee members will be recognized for questions prior to 
those not sitting on the subcommittee.
    Without objection, so ordered.
    This morning, we continue the committee's oversight 
dialogue with the Department that began last week with the 
foundational testimony that General Campbell laid out before 
the full committee. General Campbell testified about the 
evolving security situation in Afghanistan, and the policy, 
strategy, and posture required from our Nation in order to 
develop, sustain, and support the people and unity government 
of Afghanistan well into the future.
    The goal of our hearing is to learn about and assess the 
Department's efforts to train, advise, and assist the 
Afghanistan security forces as we and our coalition partners 
strive to build a capable and lethal Afghan security force. 
Afghanistan needs to maintain its sovereignty and protect its 
population. And for the benefit of Afghanistan, the United 
States, and international community, it must also deny 
terrorist safe havens.
    In reading the recent Congressional Report submitted by our 
witnesses and listening to testimony from General Campbell, the 
subcommittee understands that the Afghan security forces are 
still in their nascent stages of becoming a professionalized, 
self-sustaining, and capable institution. But there is still 
various shortfalls and insufficient capabilities and important 
functions hindering these goals. The Afghan forces do not have 
enough airplanes or helicopters, especially those capable of 
providing close air support.
    While there clearly has been improvement, the ability to 
collect and disseminate ample intelligence is lacking, as is 
the ability to maintain and account for equipment. Even the 
bread-and-butter administrative issues such as paid leave and 
medical services for Afghan forces need attention.
    According to last week's testimony, these challenges are 
compounded by the fact that 70 percent of the problems facing 
Afghan security forces result from poor senior leadership 
within the Afghan Ministries of Defense and the Interior. The 
Taliban are emboldened. The Haqqani Network continues to 
sponsor terrorist attacks, and there is a growing Islamic State 
presence in Afghanistan. Thus, it is essential that we ensure 
that the Afghan security forces and their civilian leadership 
are properly positioned on the critical path of success.
    However, I am concerned that the President's current budget 
request for aiding the Afghan forces is $200 million less than 
last year's amount. And the administration plans to withdraw 
U.S. forces down to 5,500 beginning as soon as April of this 
year. We must not prematurely reduce our commitment to the 
people of Afghanistan. All one needs to do is to look at the 
results of premature withdrawal in Iraq to determine what will 
happen if we repeat near history and prematurely leave 
Afghanistan.
    General Campbell noted last week the devotion of the Afghan 
people in fighting for their country. This is a positive sign. 
While the material and support is something the American people 
can assist with, having the heart and willingness to fight is 
something the Afghan people must offer. He also suggested last 
week that the U.S. should begin instituting a 5-year planning 
cycle for the region instead of the unpredictable, 1-year-at-a-
time approach that tends to foster instability, uncertainty, 
and insecurity.
    General Campbell also readily acknowledged that our 
sustained engagement in Afghanistan will continue through 2024, 
further strategic partnership agreements signed by the 
Governments of Afghanistan and the United States. We must also 
ensure there are appropriate mechanisms and governance 
structures in place that provide for effective insight in order 
to oversee, account for, and safeguard the security assistance 
the U.S. and our international partners are contributing to the 
Afghans.
    We need to limit, as much as possible, opportunities and 
activities or operations that would encourage or enable 
individuals to exploit or conduct any fraud, waste, or abuse 
activities. Activities of this nature can undercut the trust of 
the American people, impedes morale of our troops, and fuels 
skepticism that we are not seriously committed to effective and 
efficient use of our resources.
    I look forward to discussing the Department's strategy for 
addressing the issues I have outlined, and to hear from some 
who have conducted their own assessment of these activities.
    But before I introduce the witnesses, I turn to the 
Oversight and Investigations Subcommittee ranking member for 
any opening remarks she would wish to make. Representative 
Speier.

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Speier. Thank you, Madam Chair. And I thank you for 
joining me in seeking this particular hearing.
    I want to thank all of our witnesses for appearing today.
    Our troops are in Afghanistan performing an important 
mission, which includes training, advising, and equipping the 
Afghan National Defense and Security Forces [ANDSF] so that 
they can sustainably defend themselves against insurgent 
groups, such the Taliban. Having said that, I am concerned that 
our strategy hasn't yield the positive results that would 
inspire confidence that the Afghan security forces can go it 
alone any time in the foreseeable future, which leads to the 
obvious question, Will we ever leave? Can we ever leave? I am 
not convinced that our existing plan is one that we can take to 
the American people and assure them that our presence in 
Afghanistan is worth the cost in money and in lives.
    By many accounts, 2015 was the worst year for security 
instability in Afghanistan since 2001. 2015 was the first year 
that the Afghan forces took the lead, meaning some level of 
instability was expected, but it was alarming, nonetheless. And 
I am not convinced that 2016 will be any better. Is there a 
clear strategy to support our troops and accomplish our goals? 
Or are we just moving chess pieces around the board because we 
are forced to make a move? Underpinning these concerns, I don't 
get a sense that we are, frankly, addressing the fundamental 
challenges we face in Afghanistan. Corruption, weak Afghan 
military leadership, and a tenacious insurgency, which seems to 
be only getting stronger, are undermining our efforts there, 
and I would like to know how these issues get resolved in a way 
that allows us to leave in a timely manner without creating a 
security vacuum.
    Again, the question is, do we ever leave? The American 
public has a right to know. One thing is for sure, Congress 
needs high-quality information to understand the situation we 
are confronting, and effective oversight from inspectors 
general is essential to our ability to understand these issues.
    Some might argue that this is one of the world's greatest 
producers of sheep. I just want to make sure we are not getting 
the wool pulled over our eyes.
    We need to make sure that the information we are receiving 
is reliable, that we are asking the right questions, and are 
able to travel the country to assess the conditions.
    Here are some bedrock issues that require far more clarity. 
We need to know how the Afghan forces' progress is being 
measured, what we have learned from the challenges of the last 
year, and how gaps in the ANDSF capabilities will be addressed 
going forward. Are the Afghan forces on a positive trajectory 
for meeting and sustaining their capability objectives? For 
now, it is apparent that our assistance is still needed to 
build and sustain ministerial institutions to lead the Afghan 
forces. They also need a capable Air Force and other key 
enablers, including sound operational planning, logistics, and 
maintenance systems. Just this week, it was reported that the 
U.S. military advisers are being sent to southern Afghanistan 
to give additional support to the Afghan National Army in that 
region. In short, the Afghans are not yet ready to secure their 
own country without assistance from the U.S. and our coalition 
partners. And if recent experience is any indication, it could 
be years until they are.
    We need to be clear-eyed and better informed about the 
Afghan forces' abilities, now and in the future, to secure the 
country and to reliably prevent extremists from, once again, 
using Afghanistan as a safe haven for terrorists to threaten 
the United States. We need to make sure we have realistic goals 
and a plausible strategy that fits our goals. Above all, we 
need to make sure we are telling ourselves the full story about 
our situation so that we could figure out where to go next.
    I look forward to all of your testimony and assessments 
about the developments of the Afghan forces, which, I hope, 
will provide us a fuller picture of the forces' progress, 
performance, and capabilities.
    And with that, I yield back.
    Mrs. Hartzler. Thank you, Ms. Speier.
    I am pleased to recognize our witnesses today, and I want 
to thank them for taking the time to be with us.
    We have Ms. Christine Abizaid, Deputy Assistant Secretary 
of Defense for Afghanistan, Pakistan, and Central Asia from the 
Office of the Secretary of Defense; Colonel Stephen Michael, 
Deputy Director for the Pakistan, Afghanistan, and 
Transregional Threats Coordination Cell from the Office of 
Chairman of the Joint Chiefs of Staff; Mr. Kent Breedlove, 
Senior Defense Analyst for Afghanistan with the Defense 
Intelligence Agency; the Honorable John Sopko of the 
presidentially appointed Special Inspector General for 
Afghanistan Reconstruction; and Mr. Michael Child, Deputy 
Inspector General for Overseas Contingency Operations from the 
Department of Defense.
    Thank you, all, again, for being with us today. And we will 
now begin with our opening statements.
    Ms. Abizaid, we will begin with you.

 STATEMENT OF CHRISTINE S. ABIZAID, DEPUTY ASSISTANT SECRETARY 
     OF DEFENSE FOR AFGHANISTAN, PAKISTAN AND CENTRAL ASIA

    Ms. Abizaid. Thank you very much.
    Chairman Hartzler, Ranking Member Speier, members of the 
subcommittee, Congressman Jones, thank you for your steadfast 
support for our efforts in Afghanistan, and for inviting me to 
discuss the Department of Defense's efforts to develop the 
Afghan National Defense and Security Forces, the ANDSF.
    I am honored to have the opportunity to update you 
alongside my colleagues from the Joint Staff, the Defense 
Intelligence Agency, the Office of the DOD [Department of 
Defense] Inspector General [DOD IG], and the Special Inspector 
General for Afghanistan Reconstruction [SIGAR].
    All of the witnesses before you today take very seriously 
our responsibility to ensure that U.S. personnel in Afghanistan 
have the resources, authorities, and guidance they need to 
accomplish their mission.
    I would also like to acknowledge the 2,236 U.S. service 
members who lost their lives while serving in Afghanistan, the 
20,115 military personnel who have been wounded in that 
country, and the thousands of families who have also sacrificed 
for this important mission. Their efforts represent a 
strategically significant contribution to the security of our 
homeland.
    Now, within the Department of Defense, my office provides 
overall policy guidance for and oversight of the mission in 
Afghanistan, including DOD-funded security assistance for the 
ANDSF. We have daily contacts with key theater and person--key 
personnel in theater at the Combined Security Transition 
Assistance Command, Afghanistan, or CSTC-A, which has primary 
responsibility for the execution of the DOD security assistance 
mission.
    We also work closely with other offices within DOD, the 
intelligence community, and the Department of State, as we 
continually assess the status of our efforts in Afghanistan.
    My office also supports the efforts of the DOD IG and those 
of SIGAR, ensuring they have the information and, importantly, 
the context required to fulfill their mandates to review our 
efforts.
    Now, our priority in Afghanistan remains to prevent it 
from, once again, becoming a safe haven from which terrorists 
can plan attacks against the United States homeland, U.S. 
interests abroad, and our international partners. In pursuit of 
this objective, we are conducting two complementary missions in 
Afghanistan: our counterterrorism mission against the remnants 
of Al Qaeda and other extremist groups that threaten the United 
States, such as the Islamic State in Khorasan Province; and the 
NATO [North Atlantic Treaty Organization]-led train, advise, 
and assist mission with the ANDSF, known as Resolute Support.
    In October 2015, following a comprehensive review of the 
mission, President Obama announced that we would retain up to 
9,800 U.S. military personnel in Afghanistan throughout most of 
2016, drawing down to 5,500 personnel by January 2017. 
Importantly, this presence will not just be based in Kabul, but 
also in other locations, including Bagram Air Base, Jalalabad, 
and Kandahar. This decision provides U.S. forces with 
sufficient capabilities to continue the development of Afghan 
ministerial capacities, along with key ANDSF capabilities in 
aviation, intelligence, special operations, logistics, and 
maintenance.
    This presence will also allow the United States to both 
pursue counterterrorism targets, and to assist the ANDSF in 
further developing those critical counterterrorism capabilities 
that we know are critical to our mutual security interests. The 
financial support of the United States and the international 
community is critical to sustaining the ANDSF. Over the last 
decade, congressional appropriations for the Afghan Security 
Forces Fund, or ASFF, have been key to the development of 
Afghan security forces responsible for the security of 
Afghanistan. As we develop the ANDSF, our support is focused on 
ensuring that they are able to counter and degrade the Taliban, 
and establish a baseline level of security that benefits not 
only the Afghan people, but also the international community.
    For more than a year, the mission of providing security for 
all of Afghanistan has been the sole responsibility of the 
Afghan Government. While the security situation remains fragile 
and Afghan forces will continue to require U.S. and coalition 
assistance for many years, we have witnessed important progress 
in their development over the years.
    As General Campbell noted in his testimony last week, the 
ANDSF have demonstrated the ability to conduct effective, 
large-scale, multi-pillar clearing operations against the 
country, and when insurgents attempted strategic advances in 
places like Kunduz, Ghazni, and elsewhere, the ANDSF proved 
able to rally and recapture those areas.
    Significant challenges do remain, and our train, advise, 
and assist mission is focused on helping the Afghans overcome 
them. And it is notable that even in the midst of fighting a 
war, the ANDSF and Afghan security ministries continue to 
develop their capacities to manage complex tasks such as 
budgeting, personnel management, and to address key capability 
gaps in aviation and intelligence.
    Now, U.S. taxpayers have been generous and patient with the 
ANDSF's development, and it is our responsibility to review 
carefully how best and most efficiently we can assist our 
Afghan partners. Finding the right balance between the 
effectiveness and affordability of the ANDSF is a key effort of 
this Department.
    I would like to highlight a few areas where we think 
progress is being made. First, we continue to focus on the 
development of the ANDSF's aviation capabilities, including by 
addressing their critical close air support needs as well as 
their long-term lift requirements. This is very complex, and 
represents a significant portion of our investment in the ANDSF 
now and going forward. Of note, in 2016, the Afghan aerial 
fires capability will nearly triple compared to last year. 
Second, we are spending a significant amount on ground forces 
equipment, which has relatively high sustainment costs. We 
fielded significant numbers of up-armored Humvees and other 
vehicles to the ANDSF to improve combat survivability.
    Third, Afghan security ministry pay and personnel expenses 
are a major cost driver, about 20 percent of the roughly $5 
billion total costs for the ANDSF. DOD funds the majority of 
this cost for the Afghan Government, and we have been working 
with their security ministries to develop an integrated pay and 
personnel system that will ensure we can verify that we are 
paying the right people for the right jobs.
    And, finally, corruption is a critical issue, and President 
Ghani is a great partner in addressing its impacts. He has made 
procurement reforms to address corruption in MOD [Ministry of 
Defense] and MOI [Ministry of Interior], and after we helped 
him identify corruption in fuel contracting processes, he fired 
those responsible, and now new contracts are in place. He also 
pulled up responsibility for procurement to a national level 
authority, demonstrating the seriousness with which he takes 
these issues. In each of these areas, as well as many others, 
DOD IG and SIGAR have helpfully informed our efforts to protect 
taxpayers' money and ensure we can achieve our goals in 
developing the ANDSF.
    In closing, I want to, again, thank the subcommittee for 
this opportunity to discuss our efforts to develop the ANDSF, 
and to ensure that we are doing so responsibly.
    The Afghan Government will continue to rely on large 
amounts of financial assistance to the ANDSF until such time as 
fighting significantly diminishes. We are in the process of 
working with our allies and partners to extend international 
funding commitments through at least 2020, and we look forward 
to working with Congress to ensure effective oversight of these 
efforts to achieve our national objectives in Afghanistan. 
Thank you.
    [The prepared statement of Ms. Abizaid can be found in the 
Appendix on page 37.]
    Mrs. Hartzler. Thank you.
    Colonel Michael.

     STATEMENT OF COL STEPHEN MICHAEL, USA, JOINT STAFF J5 
             TRANSREGIONAL THREAT COORDINATION CELL

    Colonel Michael. Chairman Hartzler, Ranking Member Speier, 
I am grateful for this opportunity to, you know, talk to 
yourself and this subcommittee and provide you information on 
the development of the ANDSF. I would ask that you submit my 
full statement to the record, and I would like to focus on some 
key and essential points.
    The first bit is talking about the Chairman's perspective. 
So as the Chairman [of the Joint Chiefs of Staff] looks at 
Afghanistan, he looks at it through a couple lenses. First of 
all, Afghanistan is important to us, because it intersects 
vital national interests, and the key one, as we highlighted, 
is ensuring that nothing that happens there, nothing that 
emanates from Afghanistan, threatens the homeland or threatens 
our interests. And that is really one of the primary lenses 
that the Chairman views this mission.
    The second, he looks at the ANDSF, the resiliency of the 
ANDSF in its leadership. Is this--is this force well led? Are 
they willing, you know, to do what it takes? Are they willing 
to sacrifice? Do they want this more than we do? Do they 
understand that they serve the people, that they serve the 
civilian government? Do they understand that you cannot harm 
the people, you know, whom you are trying to protect? Do they 
understand how to lead, you know, how to lead, you know, a 
force? So the resiliency of the ANDSF, the ability to fight 
back in adversity, the ability to lead the--you know, at the 
appropriate level, the ability to make the right decisions, 
those are all critical to him. So he assesses whether we should 
be committed to Afghanistan or not. Those are the questions 
that he consistently asks of us.
    The second bit that the Chairman looks at is the viability 
of the government. Now, the military--the military mission sets 
the conditions, you know, for everything else. So all we do is 
set the conditions for the political piece, for the whole of 
government pieces to work.
    So from the Chairman's perspective, understanding whether 
this government is viable or not, the same thing, are they well 
led? Are they corrupt? Is this government that the people 
believe? And those are all the questions that he consistently 
asks himself to inform his best military advice. And his 
current assessment is that the ANDSF leadership is resilient. 
This is a force that we should partner with. This is a force 
that deserves our support. And, likewise, he sees in President 
Ghani, you know, partner for the nation. So as we look at 
Afghanistan and the region, the Chairman's assessment is a 
stable Afghanistan meets and supports our interests, and a 
stable Afghanistan also lends, you know, to stability in the 
region.
    As we look at the ANDSF development, so, really, beginning 
in 2013, the ANDSF were in the lead, but in 2015 is the first 
year they were fully responsible for the security. Our strategy 
is focused on they own the tactical fight, and we are focusing 
on the things that really guarantee, you know, long-term 
sustainability, long-term viability to the force. So the 
institutional level, do they have the ability to man, train, 
and equip, and field a professional force? Do they have the 
ability to sustain that force, direct that force in the 
counterinsurgency fight? The tactical fight, they own. And this 
has been a pretty tough and contested year.
    Probably the biggest difference is they are operating in 
areas that cater to the areas that the coalition has been 
operating in. So they are fighting all across the country. And 
across the board, they are doing well. They are getting their 
noses bloodied, but they are also--they are also doing a great 
job in securing Afghanistan. And as we look at it across the 
board, we can clearly say that most of the major population 
centers are secured and controlled by the ANDSF, and that there 
are some rural areas that are either controlled by the Taliban 
and the insurgency or under the influence of the Taliban and 
the insurgency. There are a total of 407 districts, and eight 
of those, about 2 percent we can say is under the insurgents' 
control, and about 18 of those, or 4 percent, we can say is 
under the influence of the Taliban.
    This year has also seen an increased amount of casualties 
in the ANDSF. And as we look at the numbers, it is probably 
about a 26 percent increase. Much of that is felt by the 
police. And also, as we look at the numbers, most of the 
increases came in some of their directed multi--multicorps 
operations, much of it down in the south in their operations in 
Helmand, and then there was multicorps operations further to 
the north, in Zabul and Ghazni, then in the east, and also 
centrally in support of securing the capital in Kabul.
    The other impact of their operations is that there is also 
an increased amount of casualties that the Taliban has taken. 
By conservative estimates, the conservative estimates are that 
the Taliban has sustained some of their highest casualties 
since their high point in 2011, casualties at a rate two times 
of that of the ANDSF.
    Our assessment is they own the tactical fight. Our job is, 
really, to support and enable them in the tactical fight. But 
really we have to focus on the pieces that will sustain us long 
term, their leadership, their ability to man, field, and equip 
this force and direct this force. The gaps that you 
highlighted, close air supports, ISR [intelligence, 
surveillance, and reconnaissance], and things that are 
essential to keeping this force, you know, viable in the long 
term.
    As we look at--you know, at fighting season--at this 
current fighting season, as Ms. Abizaid says, we have a dual 
focus to train, advise, and assist, and separately, our 
counterterrorism mission. Both of those are tied to our 
interest. Training this force and making sure they can secure 
Afghanistan is critical to securing our interests, and then, 
separately, the counterterrorism mission gives us the ability 
to do things that the Afghan force has not--doesn't have the 
capability or the resources to do or things that we see that 
directly impact our interests.
    And as we look at the--at kind of the long term, so the 
President made the decision about 5,500 footprint going 
forward, and that decision was informed, you know, by the best 
military advice of the Chairman, of, you know, the CENTCOM 
[Central Command] commander, of the commander in the field, and 
that mission, and the critical thing about that mission is one 
of the first times the decision was made to where it was really 
not necessarily tied, you know, to timeframe. It is an enduring 
mission. It is tied to our enduring partnership in Afghanistan, 
and to cover and address our strategic interests in the region.
    Additionally, as you all know, you know, we are going 
through the leadership transition in Afghanistan. General 
Nicholson was confirmed by the Senate, and over the next period 
of months, he will transition into Afghanistan. And as he said 
in his testimony, as he comes in, he will do an assessment, and 
then based on his assessment, he will recommend, you know, his 
best military advice. And both the outgoing Chairman, General 
Dempsey, has said he has access and influence in his ability to 
present his best military advice to the Secretary of Defense 
and the President and, likewise, General Dempsey has said the 
same thing. So as we transition leadership, if General 
Nicholson, you know, assesses any requirements or any 
adjustments that are needed to be made, he has the latitude to 
bring that forward and for the Chairman to present that as his 
best military advice.
    Thank you for your time.
    [The prepared statement of Colonel Michael can be found in 
the Appendix on page 50.]
    Mrs. Hartzler. Thank you.
    Mr. Breedlove.

    STATEMENT OF KENT A. BREEDLOVE, SENIOR DEFENSE ANALYST-
            AFGHANISTAN, DEFENSE INTELLIGENCE AGENCY

    Mr. Breedlove. Thank you. Madam Chair, Ranking Member 
Speier, and distinguished members of the subcommittee, thank 
you for the opportunity to come before you today to discuss 
this important topic. My comments this morning will be brief 
and build upon my written statement and the previous opening 
statements from my colleagues.
    Afghanistan continues to face a diverse collective of 
threats from insurgent groups to extremist networks, and from 
terrorist groups to narcocriminal networks. This includes names 
we are familiar with, like the Taliban, the Haqqani Network, 
and Al Qaeda, as well as the emergence of groups like the 
Islamic State-Khorasan Province, or IS-K, and Al Qaeda in the 
Indian Subcontinent, or AQIS. This menagerie of insurgents, 
terrorists, and criminals constitute a resilient and persistent 
threat to Afghanistan's stability and general stability in the 
region.
    Their activities range from opium trafficking, extortion 
and kidnapping that fuels the insurgency to high-profile 
attacks in populated areas and improvised explosive attacks 
along road networks that both typically result in high Afghan 
civilian casualties. Rural areas of Afghanistan and the 
Afghanistan-Pakistan border regions remains a sanctuary for 
these various groups, and the remote and rugged terrain of 
these areas only adds to security challenges they pose.
    In the first fighting season against an Afghan-led 
counterinsurgency, Taliban-led insurgents remain resilient. 
Fighting has been nearly continuous since last February, 
resulting in increased casualties among both Afghan security 
forces and insurgents themselves. The Taliban have proven cable 
of taking rural ground and contesting key terrain in areas such 
as Helmand and Kunduz provinces while continuing to conduct 
high-profile attacks in the capital city, Kabul.
    These high-profile attacks, in particular, achieve one of 
the Taliban's main objectives of garnering media attention and 
creating a sense of insecurity that undercuts perceptions of 
the Afghan government's ability to provide security.
    Following Pakistani military operations in north Waziristan 
last year, many out-of-area fighters, to include some Al Qaeda 
leaders, were displaced in Afghanistan. Al Qaeda activities 
remain focused on survival, regeneration, and planning future 
attacks. The organization has a sustained presence in 
Afghanistan, primarily concentrated in the east and northeast 
of the country.
    Other groups involved in Taliban-led insurgency, the 
Haqqani Network remains the greatest threat to the U.S. 
coalition and Afghan forces, particularly with the demonstrated 
capacity and intent to support and launch these high-profile, 
complex attacks across the country, and in particular, the 
Kabul region. Haqqani Network leader Siraj Haqqani's elevation 
as the new deputy for the Taliban leader, Mullah Mansour, has 
further strengthened the network's role in the insurgency.
    Over this past year, the Taliban-led insurgency remained 
determined, maintained or consolidated its influence in 
traditionally rural strongholds, dominated the information 
space, and carried out attacks with an increased frequency 
compared to last year.
    These attacks range from small-scale checkpoint overruns to 
the temporary capture of Kunduz City, and their efforts forced 
Afghan security forces into a more reactive, rather than 
proactive, posture. However, I want to emphasize that the 
insurgency is not immune to its environment and faces similar 
challenges that my colleagues highlighted with Afghan forces. 
The announcement of former leader Mullah Omar's death last 
July, and the contentious accession of its new leader, Mullah 
Mansour, led to the emergence of a Taliban opposition faction 
in late 2015. Infighting between Mansour's supporters and this 
opposition is ongoing, and the Taliban has faced competition 
from the emergence of ISIL's [Islamic State of Iraq and the 
Levant] regional affiliate in the region, the IS-K.
    While the insurgency mounted larger coordinated attacks, 
they were generally outmatched when engaged with Afghan 
security forces. They also could not capture or defend key 
targets they may have captured, and unable to hold some of 
these key areas of terrain for extended period of time, such as 
we saw in Kunduz. They also suffered high levels of reported 
casualties as well as resource shortfalls.
    Let me close with a brief outlook to the coming fight this 
year. We expect the Taliban-led insurgency will try to build on 
its temporary victory in Kunduz last year by attempting to 
surround and pressure other population centers, exploit 
vulnerabilities in Afghan security force posture by conducting 
mass attacks against vulnerable checkpoints and district 
centers, primarily in more remote or isolated rural areas, and 
attempt to impede ground lines of communication ahead of these 
attacks in these population centers. They will also seek to 
continue high-profile attacks against government and civilian 
targets in key populated areas, such as Kabul.
    Thank you, again, for this opportunity, and I look forward 
to your questions. Thank you.
    [The prepared statement of Mr. Breedlove can be found in 
the Appendix on page 60.]
    Mrs. Hartzler. Thank you, Mr. Breedlove.
    Mr. Sopko.

STATEMENT OF HON. JOHN F. SOPKO, SPECIAL INSPECTOR GENERAL FOR 
                   AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, and good morning.
    Chairman Hartzler, Ranking Member Speier, and members of 
the subcommittee, I am very pleased to be here today to discuss 
the development of the Afghan National Defense Security Forces, 
or ANDSF. SIGAR has produced a substantial body of work on the 
ANDSF over the past 8 years, and has more work in progress.
    In addition to audits, inspections, investigations, and 
special project reports, SIGAR publishes a quarterly report 
that continues to be the single most comprehensive and detailed 
source of information on the ANDSF specifically, and on 
Afghanistan reconstruction in general.
    To conduct this work, SIGAR has the largest single, 
investigative, and auditing presence in Afghanistan with more 
people on the ground than all other U.S. oversight bodies 
combined, and enjoys a unique, direct oversight relationship 
with the Afghan Government, and the personal support of 
President Ghani and CEO [Chief Executive Officer] Abdullah, who 
I meet with on a regular basis.
    As we all know, Afghanistan is one of the most difficult 
places in the world in which to work and to do business. The 
dangers there are very real. And our military, civilians, and 
contractors--and we can't forget the contractors--have 
accomplished so much over the past 14-plus years that it is 
impossible not to be proud and humbled by their efforts and 
great sacrifice. Nevertheless, based on our work, we see five 
major challenges that could have a significant effect on 
whether the United States is able to achieve its strategic 
objectives in Afghanistan. We believe that the five questions 
provoked by these challenges should be at the center of yours 
and other policymakers' discussions.
    The first challenge is that the drawdown of troops has 
imperiled the U.S. ability to monitor and mentor the ANDSF.
    U.S. military advisers and their coalition partners now 
have little or no direct contact with ANDSF units below the 
Army corps and regional police headquarters level. This 
provokes the obvious question, is the current level of U.S. 
military personnel in Afghanistan adequate to ensure that the 
ANDSF do not fail in their mission?
    The second question, the reported floor strength of the 
ANDSF is questionable. The U.S. now has no option but to rely 
on the Afghans to report on the number of troops and police in 
the field. Yet, SIGAR audits indicate that recordkeeping in the 
field by the Afghans is generally poor or nonexistent. We 
continue to see repeated reports of ghost soldiers, ghost 
police, as well as ghost teachers, ghost schools, ghost clinics 
throughout Afghanistan, and these are even reported by the 
Afghan leadership. This leads to the next question, does the 
United States have an adequate understanding of the number of 
ANDSF troops and police?
    Thirdly, assessments of the ANDSF's capability and 
effectiveness have never been reliable, and appear to be 
getting worse. SIGAR audits show that over time, U.S. 
capability ratings of Afghan military units have become 
progressively less demanding and more vague. For example, only 
a few years ago, the top rating was, quote, unquote, ``fully 
capable,'' which was later changed to, quote, ``effective with 
ambassadors,'' and has now declined to, quote, ``independent 
with advisers,'' the latter being something of a head-
scratching oxymoron.
    This leads to our third question, does the U.S. have a 
realistic understanding of the ANDSF's real capabilities?
    Fourthly, the Afghan ministries of defense and interior 
obviously lack the capability to account for on-budget 
assistance, and this is important. Because since 2010, our 
government, as well as our allies, have gradually increased, 
based upon promises at international meetings, the level of 
direct on-budget funding to the Afghan Government. Yet, there 
is less U.S. visibility and control over those funds. SIGAR's 
work has uncovered several cases in which the MOD and MOI were 
incapable of properly managing on-budget assistance. The 
question, therefore, is if MOD and MOI lack the capability to 
manage on-budget assistance, does CSTC-A [Combined Security 
Transition Command-Afghanistan] need to resume more control of 
more assistance to the ANDSF?
    Now, lastly, a year after the coalition drawdown, the ANDSF 
is still far from being sustainable. And remember, that is our 
goal, sustainability. The Afghan Government simply does not 
generate enough revenue to sustain the ANDSF, or even the rest 
of their government now, or at any time in the foreseeable 
future.
    At the same time, SIGAR's work reveals that the 
accountability for funding is lacking in many areas. This leads 
us to our last question for you, is the U.S. Government 
conducting adequate oversight and management of the billions of 
dollars promised in the future to fund the ANDSF?
    Now, in recent testimony just this week before the U.S. 
Senate, the Director of the National Intelligence predicted 
that, quote, ``Fighting in 2016 will be more intense than 2015, 
continuing a decade-long trend of deteriorating security,'' 
unquote.
    He went on to say that the ANDSF will, quote, ``probably 
maintain control of major population centers; however, it will 
cede control of various rural areas.''
    He ended by saying, ``Without international funding, the 
ANSF will probably not remain a cohesive or viable force,'' 
unquote.
    Now, I think his statement highlights the importance of 
honestly answering these five questions and taking realistic 
action accordingly.
    Thank you very much, and I look forward to answering your 
questions.
    [The prepared statement of Mr. Sopko can be found in the 
Appendix on page 63.]
    Mrs. Hartzler. All right. Votes are being carried out right 
now. We have 11 minutes left, so I am feeling like we probably 
ought to suspend the hearing at this point and go vote, it is 
supposed to take about 40 minutes, and then come back and 
reconvene for your testimony and questions, Mr. Child.
    So I apologize for the delay, but thank you for 
understanding. We will look forward to hearing you soon.
    Mr. Child. Yes, ma'am.
    Mrs. Hartzler. Thank you.
    [Recess.]
    Mrs. Hartzler. Thank you very much for your patience and 
for waiting until we got done with votes. So, Mr. Child, let's 
hear your testimony.

  STATEMENT OF MICHAEL S. CHILD, DEPUTY INSPECTOR GENERAL FOR 
     OVERSEAS CONTINGENCY OPERATIONS, DEPARTMENT OF DEFENSE

    Mr. Child. Chairwoman Hartzler, Ranking Member Speier, 
distinguished members of the subcommittee, thank you for the 
opportunity to discuss capabilities gaps in the Afghan National 
Security Forces. As the Deputy Inspector General for Overseas 
Contingency Operations, I manage DOD IG oversight for Operation 
Freedom's Sentinel in Afghanistan. And as the chair of the 
interagency Southwest Asia Joint Planning Group, I help 
coordinate oversight among the several inspectors general in 
Afghanistan.
    I serve a similar role for Operation Inherent Resolve, the 
Iraq-Syria counter-ISIL mission. And I describe that 
coordinating role in more detail in my written statement. 
Regarding Afghan security forces, my observations are based on 
our oversight work and recent published reports. We view the 
challenge of developing sustainable Afghan fighting forces as 
twofold, balancing the requirement to provide near-term 
fighting capability against a longer-term need to build the 
Afghans' capacity to sustain their fighting forces, and 
building effective national institutions where those have not 
previously existed.
    Shortcomings in Afghan sustainment capacity are a recurrent 
theme in our oversight work. I would like to highlight three 
examples: supply and maintenance, property accountability, and 
key commodities. As the supply and maintenance for many years 
of Operation Enduring Freedom, U.S. and NATO partners 
emphasized rapidly growing the army and police forces. And they 
robustly supported them in combat operations, and, therefore, 
pushed supplies to Afghan units rather than requiring units to 
pull supplies based on need and validated requirements. The 
result is, the Afghans have little experience with demand-
driven support systems.
    A recent DOD IG assessment found that the Afghan National 
Army was unable to properly forecast their material 
requirements. Regarding property accountability, we reported in 
April of 2015 that the Ministries of Defense and Interior did 
not have effective controls to manage the 95,000 vehicles 
procured by the U.S. and coalition partners. The long-term 
solution to equipment readiness and maintenance should be the 
implementation of the Afghan national maintenance strategy. 
This strategy will place contractors at 23 key locations to 
maintain equipment and train the Afghans to conduct their own 
maintenance. The goal is to achieve full Afghan responsibility 
for maintenance by 2021.
    Regarding key commodities, our oversight has found 
significant issues in the management of fuel and ammunition. In 
April 2015, we found a lack of adequate internal controls to 
manage both fuel and ammunition. Last month, we reported 
deficiencies in controls involving fuel procured for the 
Interior Ministry. We found that coalition advisers had no 
reasonable assurance that all U.S.-funded fuel, valued at $438 
million, was used for its intended purpose.
    We will conduct a similar audit of fuel procurement for the 
Ministry of Defense later this year. Future DOD IG work in 2016 
will include assessments of U.S. efforts to build an 
independent Afghan special forces and intelligence capability. 
We will soon evaluate the progress of U.S. Special Operation 
Forces in training, advising, and assisting the Afghan special 
forces.
    And this month, we will send a team of intelligence 
specialists to assess progress in developing effective Afghan 
intelligence operations. Looking forward, my office is engaged 
in a review of current programs and operations to identify 
future oversight work as the lead inspector general for 
Operation Freedom's Sentinel. As you may recall, Congress 
created the lead IG (Inspector General) for Overseas 
Contingency Operations in the fiscal year 2013 National Defense 
Authorization Act. The IGs of the Department of Defense, 
Department of State, and United States Agency for International 
Development, execute the lead IG mandate which was enacted to 
provide improved, coordinated, whole-of-government oversight in 
overseas contingency operations. We appreciate the support of 
this committee, subcommittee as we discharge our oversight 
responsibilities. And I look forward to your questions. Thank 
you.
    [The prepared statement of Mr. Child can be found in the 
Appendix on page 80.]
    Mrs. Hartzler. Thank you, Mr. Child. I will start the 
questions. Ms. Abizaid, I was wondering, what is the rationale 
for beginning the drawdown before the upcoming summer fighting 
season, and before a new U.S. administration has an opportunity 
to conduct its own assessment of the mission and needed troop 
levels?
    Ms. Abizaid. So my understanding of the drawdown timeline 
is not that it will begin in the summer of 2016. The President 
has directed that General Campbell try and keep at the 9,800 
level through as much as 2016 as possible so we can do what we 
can in both our train, advise, and assist mission and our CT 
[counterterrorism] mission to get the most out of our 
relationship with the Afghans as they improve throughout 
fighting season 2016. The rationale for the drawdown to the 
5,500 is about how we set ourselves up for a future, 
sustainable presence in the country at key locations outside of 
Kabul.
    The fact that we will maintain facilities in Jalalabad, in 
Kandahar, in Bagram, are key differences between the plan that 
was originally approved and the one that President Obama 
revised, that, I think, provide us the kind of flexibility we 
need to adjust the mission accordingly.
    Mrs. Hartzler. Very good. Thank you. Colonel Michael, 
Afghan security forces have capability gaps, as we have heard 
you testify, in helicopter/airplane capabilities. These include 
the essential foundational activities and missions that 
professional militaries need in order to be efficient, 
effective, and lethal. So what limiting factors are precluding 
the ANDSF from sufficiently and effectively establishing these 
capabilities?
    Colonel Michael. Ma'am, I wouldn't say that there's 
anything specifically that's limiting them. To build this 
capability just takes time. First is the time to get the 
material and then time in the training process. So we look 
specifically at the CAS [close air support], we're fielding the 
A-29s. There are four platforms that are already in country. 
There is four more that will be there by April. And then there 
is a total of six--correction, eight more that will show up 
after that.
    So part of it is procuring the equipment on time. And then 
the other part is training that capability. As you know, 
developing pilots, you know, is something that takes, you know, 
it takes a lot of specificity and time.
    Mrs. Hartzler. How will the development of these 
capabilities be affected by the upcoming drawdown to 5,500 U.S. 
troops?
    Colonel Michael. Ma'am, as we--the 5,500 also has the 
capacity to maintain train, advise, and assist for the Afghan 
Air Force. And, in addition, we are also specifically focused 
on train, advise, and assist to the Afghan special security 
forces. So both of those components will maintain train, 
advise, and assist oversight.
    Mrs. Hartzler. Okay. Mr. Breedlove, in your professional 
opinion, how do you believe the Afghan Taliban would react if 
the U.S. and coalition forces were able to target the Afghan 
Taliban directly as part of the counterterrorism mission, and 
outside the commander's current ability in only extremis-type 
situations?
    Mr. Breedlove. I think the best way I would phrase it is, 
we saw--we have seen how the insurgents, and particularly the 
Taliban, do react when we were under the surge, when we had 
U.S. and coalition forces in the fight, backed up by their own 
air support, as you know. And we saw adjustments in how they 
approached their tactics. What your specific questions, I don't 
think we would see much of a change as far as the fight on the 
ground. I think the fighters on the ground will adjust. They 
are an adaptable enemy. They will adjust to their environment, 
as we saw this year, same as we saw them adjust when U.S. 
combat forces were much larger and much more aggressive than 
previous years. But it doesn't stop them from fighting.
    So at best, we may see hesitation among some operations. We 
may see changes in how they maneuver. But I think at a tactical 
level, that would be the most we would expect to see. At a 
senior level, I don't think it would have much of an impact. 
Most of the senior leaders are not in the country anyways.
    Mrs. Hartzler. So would direct targeting bring the Afghan 
Taliban to the negotiating table quicker and provide additional 
breathing room to the ANDSF and the Afghan unity government?
    Mr. Breedlove. Ma'am, in my opinion, I think that would be 
a--it could be a factor, one of many tools that could be 
applied, but in and of itself, I don't think that's enough. It 
would have to be one of many tools to help change their belief 
that they're still, they still have the time to win this fight.
    Mrs. Hartzler. Okay. Thank you. And Mr. Sopko and Mr. 
Child, in your professional opinions, has the Department of 
Defense made adequate progress in establishing sufficient 
oversight and accountability mechanisms within its command and 
governance architectures to minimize opportunities, or identify 
quickly, if they occur, fraud, waste, and abuse activities that 
have plagued certain aspects of the Department's mission 
execution over the recent years?
    Mr. Sopko. Very briefly, no. And part of it is because they 
don't have the resources for doing so. I think I noted in my 
longer statement, which I offer to be made part of the record, 
that we have even noted some of the task forces set up to fight 
and combat corruption have had to be abolished because there 
are no resources. So I would say no.
    Mrs. Hartzler. Okay. Mr. Child.
    Mr. Child. Ma'am, I believe, from our oversight, that they 
have established systems. The challenge is properly and fully 
implementing the systems. And I would offer three examples: 
They have begun the process of moving the Afghans to electronic 
pay and information system; they have--the Department improved 
the process for identifying, training the proper, both military 
and civilian advisers to conduct the train, advise, and assist; 
and they have increased the enforcement of the commitment 
letters which apply conditionality to the funds that have been 
applied.
    But, again, I would not say that they have adequately 
progressed in that. This is part of a process. And I think 
there are also complicating factors it is real important to 
consider. You have got illiteracy, endemic corruption. You have 
got the political tribal decisions for selecting commanders. 
General Campbell said that 70 percent of the problems that he 
saw was based on leadership. Both selecting and being able to 
relieve commanders and senior leaders is too often based on 
these other factors rather than competency. And I think for 
understandable reasons, we don't have the stability of advisers 
because the tours are 9 months to a year, it is very difficult 
to have that kind of relationship over time. Instead, the 
contractor force is really the institutional memory in 
Afghanistan. And that is a challenge.
    And, finally, as Mr. Sopko very properly pointed out, the 
insecurity of Afghanistan to have both the Department and 
oversight agencies check, kick the tires, be downrange properly 
at the proper level to check, we really are dependent on the 
Afghans and their reporting. So without implementing those 
types of systems where we can better detect that the money is 
being properly used, there is not adequate progress. But I do 
believe the systems that have been identified and properly put 
in place will provide that kind of progress. Thank you.
    Mrs. Hartzler. Thank you. Ranking Member Speier, questions?
    Ms. Speier. Madam Chair, thank you. I want to apologize to 
all of the witnesses. Many of the members who were here earlier 
wanted to be able to stay. But because this is a getaway day, 
people's schedules are such that they have to make planes. I 
think this hearing is so important that it should be held as a 
full committee hearing.
    We are spending so much money in Afghanistan. And from the 
testimony we have heard today, there is virtually no 
accountability. But let's get to a couple of the points that 
you have made. Colonel Michael, you said in your statement 
significant, long-term capability gaps remain in the areas of 
ANDSF leadership, rotary-wing aviation, combined arms 
operation, intelligence collection and dissemination, close air 
support, and maintenance. So that is a pretty significant 
indictment. If it is not improved in 2016, what are you going 
to do differently? Or what are you going to recommend that be 
done differently.
    Colonel Michael. Ma'am, the key thing to highlight is that 
it is a process. So we talk about, you know, there is 
capability gaps in leadership. But it is something that is 
being developed, you know, developed over time, both at the 
tactical level and the corps level. The main thing to 
reinforce, you know, we have really been building this force 
since 2009. Initially, when we started off, this was an 
American fight. We were in the lead. We were pulling----
    Ms. Speier. I know all of that.
    Colonel Michael. Yes, ma'am.
    Ms. Speier. The question is, though, we have been there for 
a very long time now. At some point, if we don't put conditions 
on money coming in, the spigot always being turned on and never 
being turned off, then we are not going to get the kind of 
results we are looking for. And if you don't develop a plan and 
specific expectations that are going to take place in 2016, or 
else funds aren't going to available in 2017, we will be there 
indefinitely with no success and with the American people 
literally pulling out their hair saying what are we doing here? 
That is more rhetorical than anything else. But I don't think 
your answer, frankly, is adequate. Let me ask all of the others 
of you: If 2016 is as bad as 2015, what would you recommend be 
done differently?
    Ms. Abizaid. Ma'am, first, thanks for the question. I would 
start by saying, you know, the capability gaps that you have 
identified, that we have all identified in our statements, are 
those capability gaps that are among the most sophisticated 
aspects of the force that we are still trying to build. We have 
always planned for those to be the focus of the long-term 
relationship with the Afghan Government and the ANDSF. And the 
President's decision to maintain a presence at 5,500 will allow 
us to really focus on especially the aviation, the special 
operations, the intel development.
    So that is an investment that we think is really important 
for the long-term future of not only the ANDSF, but the 
partnership between the United States and the Afghan Government 
on key CT relevant capabilities in that force.
    Ms. Speier. Do you anticipate there will be at least 5,000 
troops in Afghanistan indefinitely?
    Ms. Abizaid. I wouldn't say indefinitely. I think that the 
plan is to ensure that they progress. And as they progress, we 
can have more and more confidence in reducing our own troop 
level, which is part of how we got to the drawdown that we are 
currently planning on now. The 30,000 to 9,800 did assume that 
the Afghans could assume full responsibility for the security 
environment in 2015. And despite very real challenges that we 
mostly anticipated, they have performed as expected.
    Now, the drawdown to 5,500 does anticipate that capability 
gaps will remain, but that we are going to be able to invest to 
make up those gaps over time. I don't have a good estimate for 
how much time that will take. But I do not think it is an 
indefinite investment.
    Ms. Speier. Mr. Sopko, what do you think we should do 
differently in 2017 if 2016 is as bad as 2015?
    Mr. Sopko. Well, I think 2016 will be as bad as 2015. I 
support the judgment of the head of National Intelligence who 
predicted that. I would say if things look bad, and I think 
they do, I would have four suggestions to you. Number one, 
fully support and ensure that General Nicholson actually has 
the resources and the time to conduct that 90-day assessment, a 
true 90-day assessment of what is going on and what his needs 
are. And bring him back and have him explain to this committee 
and other committees as to what those needs are. He is the 
person who is going to be on the ground. He has got to get out 
there with his people and see what is going on.
    The second thing is I think this Congress should require 
USAID [U.S. Agency for International Development] and DOD and 
the Department of State to actually rate and rack and stack 
their programs as to what succeeded, what hasn't, and what do 
you want to get rid of in light of we have a fiscal crisis in 
the government. Why are we paying for some programs that make 
no sense anymore?
    They have never really done that. You know, I sent a letter 
to the head of AID, State Department, and the Secretary of 
Defense after I was on the job for 1 year, that is 3 years ago, 
and asked them to rack and stack all of their programs; at a 
minimum, just give me some of your success stories and why. And 
they weren't able to do it. All I got back was, you know, 
balloons and kites and happy talk.
    You know, we are helping the Afghan military. Well, great. 
What program helped the Afghan military? If you have an 
unlimited budget, you can fund everything, but if you have a 
limited budget, limited time, and limited security, which 
programs are the most important programs? I would think that is 
something Congress needs to do. And going into 2016, that is 
what you really need to do. And they have to come up with real 
measurements of success.
    Right now, the measurement of success seems to be do you 
spend the appropriations? I am not seeing real measurements of 
success in the work I do not only with DOD, but with AID and 
State. And I think that is something Congress needs to hold 
somebody's feet to the fire on.
    Ms. Speier. Mr. Child.
    Mr. Child. Ma'am, I can't argue what Mr. Sopko has said, I 
think particularly in terms of the agencies. But I do believe 
it is beyond my expertise as an oversight organization to 
address the actual policy and the prescriptions. When policy is 
decided and objectives are declared, I see it as our job as 
oversight to see how that is being implemented. But the idea of 
providing General Nicholson the opportunity to come back and 
to--after his assessment, to make clear what he thinks he needs 
to properly do his job, I think that is a proper way forward. 
And, likewise, I think it is very important that the agencies, 
as they discharge their responsibilities, they will assess what 
works. And they may then change their policy. When they do, I 
think it is my job, representing the oversight community, to 
see how that is being implemented. Thank you.
    Ms. Speier. So there were two issues that were brought up 
this morning, one was ghost troops and fuel, that I would think 
we should be able to get our handle on; $438 million being 
spent on U.S. fuel to Afghanistan. And, Mr. Child, you 
testified that there really is no accountability. Is this fuel 
being sold on the black market? Is that a potential effect of 
what is going on?
    Mr. Child. Ma'am, to be precise, we found that there was no 
reasonable assurance that all of the fuel was being used for 
its proper purpose. We couldn't pin down more precisely. And as 
to the ghost soldiers, we have a direct funding audit that, in 
part, concerns the pay system. And that will address some 
portion of the concern that we are paying for troops that are 
not actually there.
    Ms. Speier. So these troops that could be in provinces that 
we don't have the ability because it is so unsafe to send 
personnel to audit would suggest that we really have no way of 
knowing whether these troops exist or don't exist and whether 
they are functioning as members of the Afghan armed services, 
correct?
    Mr. Child. It is, it is certainly the fact that we can't 
properly assess. They clearly have troops in the roll, or on 
the rolls, because it has been a tough fighting year, and they 
were able to hold their own. So, in fact, they do have, the 
question is how many others are we paying for that are not on 
the rolls. And that is in part what the pay systems are 
designed to address. And as I was saying, I believe we have 
established, the Department has established that type of 
mechanism to address, but it hasn't been fully implemented.
    Ms. Speier. Mr. Sopko is shaking his head.
    Mr. Sopko. Well, I mean, I think the, I think my colleague 
mentioned it, we have got a program out there. We have got a 
contract we have let. But it hasn't been implemented. I mean, 
we even tried, and I mentioned it in my statement, to ping the 
system, which is supposed to have all this great data now, and 
they couldn't give us any answers from it. So that is the big 
problem.
    The ultimate thing is we are relying still on the Afghans 
who have an incentive to lie because they can collect the money 
to fill in the data cells. We don't have the people on the 
ground. Remember, we are at the level of the corps. We are not 
at the level of the brigade or the kandak or the Tooley. We 
have no visibility. So at the corps level, it may look good. I 
mean, that is like measuring our effectiveness by going over to 
the Pentagon or going over to Ms. Abizaid's office and 
understanding what is going on in Afghanistan. You have got to 
have people out on the ground. And that is the inherent problem 
with this.
    I don't care how many IT [information technology] systems 
you put into place, if the data going in is garbage in, it is 
garbage out. And that is what we are seeing, particularly in a 
country, in Afghanistan, where there is an incentive. My 
concern is we saw in Iraq where there were paper divisions. 
And, apparently, if you listen to the reporting coming out of 
Helmand by Afghan officials, there were paper units in Helmand 
which may explain what the problem is. My concern is how many 
of those units are actually just paper units?
    Ms. Speier. And we are paying for the salaries of each and 
every Afghan soldier. Is that correct?
    Mr. Sopko. We and our allies, yes. We are paying the bulk 
of it.
    Ms. Speier. And the police force as well?
    Mr. Sopko. That is correct.
    Ms. Speier. I have many more questions but I will yield 
back. Thank you.
    Mrs. Hartzler. Sure. Mr. Scott.
    Mr. Scott. Thank you, Madam Chair. Ma'am, gentlemen, thank 
you for your service. Colonel Michael, I know we are discussing 
Afghanistan today. But King Abdullah was here 1 month ago today 
and discussed that whole region of the world, if you will, 
including Libya and the Saudi and Iran situation. You are in 
charge of Pakistan as well as Afghanistan and the transregional 
threat. How do you assess the region as a whole right now? The 
threat level?
    Colonel Michael. I think if you look regionally, the threat 
level is fairly high. That is one of the reasons we are there. 
We are there to make sure that we set conditions so that what 
is happening there doesn't emanate and touch here. So from that 
perspective, the fact that we are present, you know, reinforces 
the threat level is high. As we look at IS-KP [Islamic State-
Khorasan Province], and you heard Mr. Breedlove's assessment, 
and General Campbell himself said IS-KP was operationally 
emergent. And we have the, and he has the targeting authority 
to target them. And primarily looking at IS-KP from a global 
perspective, given the fact that we are fighting the core in 
Iraq and Syria, we are making sure we have the ability to 
engage and defeat them wherever, wherever they show up.
    Mr. Scott. And today we are talking about an individual 
country, but it is a regional issue to me. And when you look 
across that whole spectrum, Libya, from what I understand, is 
in worse shape than Syria. It is just that there is not much 
reporting there because the press can't get in there. King 
Abdullah was pretty blunt with his statement that the 
volatility, I am paraphrasing a little bit, in that part of the 
world cannot be overexaggerated, and that the whole region is 
very close to, potentially, an all-out war. And that is very 
concerning to me. And we need to make sure that we keep our 
friends as strong as they can possibly be in that whole region, 
I would think, to hopefully bring about some stability.
    Mr. Sopko and Mr. Child, this may be more of a statement 
than a question, but we talk a lot about individual things, but 
it seems we waste a lot of money on not just the process that 
seems to be broken, but a procurement system that seems to be 
broken. Colonel Michael mentioned earlier the A-29 program. I 
am somewhat familiar with that as they are trained at Moody Air 
Force Base in my district. And if things had gone as planned, 
they would be in country right now. Is that correct? And so 
where we sit today, is that they should be there 3 years from 
now.
    Ms. Abizaid. Sir, there is four A-29s in country. The rest 
will wait until 2018 to be fully----
    Mr. Scott. I am talking about the completion of the system, 
of the whole, they should all be there right now?
    Ms. Abizaid. Yes. Contract delays did delay the arrival of 
the A-29s.
    Mr. Scott. And it will take 3 years from now, because of 
those contract delays, to get the rest of the pilots trained 
and the units actually in country so they can help carry out 
the fight. So that delay came as a result of a lawsuit from 
Beechcraft Defense, if I am not mistaken. Is that correct?
    Mr. Sopko. I think that is my understanding. It was a 
lawsuit. I believe that was the company.
    Mr. Scott. In your--in the written statement, it names them 
in the footnotes. Is it possible to calculate how much that 
lawsuit cost us, cost the United States by delaying that 
program for 3 years?
    Mr. Sopko. You know, I would have to check on that. I 
assume there are some costs involved. But I really don't know. 
We could take a look at that if you would like us to, sir.
    Mr. Scott. My point is the situation on the ground may be 
very different and may be very much more in our favor if we had 
been able to get the equipment in that our soldiers and our 
friends need to carry out the fight. And this isn't just with 
this situation. It is with situations all across the DOD where 
contractors are suing us. And those lawsuits are preventing us 
from getting the men and women that are out there carrying out 
the fight the equipment that they need. And Colonel Michael, if 
you had the A-29 that you are supposed to have today, would it 
change the fight?
    Colonel Michael. Sir, absolutely. The maneuver operations 
on the ground that the ANDSF is doing is greatly enhanced by 
close air support.
    Mr. Scott. Is it possible that what happened on September 
28 may have had a different outcome if we had been able to 
provide that air support?
    Colonel Michael. Sir, I couldn't necessarily, you know, 
guarantee the outcome. But the bottom line is that the maneuver 
operations on the ground is much better and enhanced with 
proper close air support.
    Mr. Scott. So these lawsuits that are delaying our ability 
to carry out the mission are costing us more than the legal 
cost of the suit is my point. And it is costing us in lives as 
well.
    One last question that I have, if I may, Madam Chair, 
before I turn it back over, when we pull down from 
approximately 10,000 troops to 5,500 or 6,000, whatever it may 
be, when we pull our soldiers out, are we, how many of those 
men and women are being replaced with contractors?
    Colonel Michael. Sir, it is not a one-for-one exchange. I 
think right now the level of contractors are almost about the 
same. I think when we go down to 5,500, there will probably be 
an increased number of contractors. But if you look at what 
they are doing, they are not necessarily, you know, a lot of it 
is support capability.
    Mr. Scott. Absolutely.
    Colonel Michael. Yes, sir.
    Mr. Scott. Maintenance on aircraft, maintenance on 
helicopters. And my point is, it seems to me that we have this 
number that we say well, we are going to pull this down because 
we have this perception that as long as we have fewer men and 
women in uniform in the country, that we are not spending as 
much, and that we are not engaged as much. But when we pull 
down a maintenance unit, for example, and we turn around and we 
send contractors back in to do that exact same maintenance, and 
we pay those contractors three or four times as much as we are 
paying U.S. service personnel, we are not, we are not being 
honest, really, about the cost of things. And I would ask Mr. 
Sopko, is it possible to calculate how much more, I would think 
it would be, we are spending on contractors as we draw down 
than we were spending on U.S. troops?
    Mr. Sopko. We have not done that type of assessment. But I 
am certain we could test that. We could take a specific 
contract or a specific program that was run by the military and 
then compare the cost. That is something we could do. We have 
not done it.
    Mr. Scott. If I could make one final point. Colonel, in 
talking with soldiers, it creates a problem when you have a 
United States soldier who is making a couple of thousand 
dollars a month sitting right next to a contractor who is 
making $10,000 a month doing the exact same job. And the 
soldiers that I talk to, when you get to the point that you 
have enough trust that we are honest with each other, that 
creates some strife in an operation, because our soldiers are 
not treated as well as the contractors are if we are honest 
about it. And so that is more of a point than a question, but 
something that I am very concerned about and making sure that 
we take care of our soldiers.
    Mrs. Hartzler. That is very good point, gentlemen. Now, Ms. 
Speier, have some more questions?
    Ms. Speier. I do. I think in the last round, Ms. Abizaid, 
you wanted to say something. Because I thought my time should 
be shifted to someone else, I did not give you the opportunity 
to speak. So if you have a comment on that last round?
    Ms. Abizaid. Sure. I appreciate the opportunity to come 
back to it. First of all, I think that the, the ghost soldiers 
problem, the problem with accountability for Afghan soldiers 
that we are paying for is a real problem and one that, you 
know, we worked closely with Mr. Child, Mr. Sopko to 
understand. We also worked closely with them to develop a 
comprehensive solution to address it. And while it is not fully 
in place yet, we are working toward an integrated pay and 
personnel system that will mitigate opportunities for 
corruption in the system.
    I think it is a really important initiative that we are 
putting in place. It is one that we are focused on. And it has 
taken a while to develop, given the unique terrain that is 
Afghanistan. But it is something that we are absolutely focused 
on and think is an important aspect of the mission. In terms of 
what the difference between fighting season 2015 and fighting 
season 2016 and how we are trying to account for those, I do 
want to assure you that General Campbell, in speaking with the 
Secretary of Defense, with the National Security interagency, 
has communicated the work that he is doing already to evaluate 
fighting season 2015, and what changes not only the Afghan 
National Security Forces need to make to improve for fighting 
season 2016, but that we need to make in our train, advise, 
assist mission.
    So it is a clear focus that we are not sort of blindly 
following the template that we started with in fighting season 
2015. We are actually looking to improve upon and progress in 
the development of the ANDSF, so we do set ourselves up for 
success in fighting season 2016 and set the conditions for the 
long-term mission in Afghanistan. Thank you.
    Ms. Speier. So as it relates to ghost troops, can we be 
competent that by the end of 2016, there will be a system in 
place that will have retina detection or something so that we 
will have a confident understanding of how many troops the 
Afghan military service has?
    Ms. Abizaid. We will certainly have greater confidence. We 
are instituting a biometric ID [identification] card system and 
issuing those to all MOD and Afghanistan National Army 
elements.
    Ms. Speier. So when will they all be distributed?
    Ms. Abizaid. I believe by the middle of this year. The 
integrated pay and personnel system will be fully implemented I 
believe for the MOI in the middle of this year as well. And by 
early 2017, we will be transitioning it to the MOD as well.
    Ms. Speier. All right. Thank you. Mr. Breedlove, in terms 
of our intelligence capability there, we were surprised with 
the death of Mullah Omar, and didn't know that he had been dead 
for some time. Is that correct?
    Mr. Breedlove. Yes, ma'am.
    Ms. Speier. So with that knowledge, what can you tell us 
about what we need to do to have better intelligence?
    Mr. Breedlove. Well, I think it is illustrative on that 
particular account that we need to keep in mind that somebody 
like Mullah Omar was basically in self-exile. He wasn't out 
there. He had always been that way. So trying to get at it from 
an intelligence perspective, that is going to be, if somebody 
wants to stay hidden, and he is surrounded by people that want 
to stay hidden, and he doesn't communicate, and he doesn't 
move, it makes it very difficult to try to find that needle in 
that haystack. And I think that was illustrative of this 
particular situation, as well as a conspiracy to perpetuate the 
fact that he was alive.
    Ms. Speier. I guess my question, though, is, are you 
comfortable that we have enough resources being extended on 
intelligence in the region, particularly in Afghanistan?
    Mr. Breedlove. I am. It is never perfect. It is never 
enough. You are asking an intelligence professional if we have 
enough information. We can never have enough information. We 
are always going to want more information. Our gaps are always 
large. In this particular case, they have grown since we have 
reduced our footprint. But I think we are adequate to get after 
what we need to do. And speaking for my agency, I think we are 
sufficient in order to do our mission set, which is support the 
warfighter in theater.
    Ms. Speier. Okay. Mr. Sopko, is it true that we just built 
a new headquarters facility for the Ministry of Defense?
    Mr. Sopko. That is correct.
    Ms. Speier. What was the cost of that facility?
    Mr. Sopko. I think the project cost was $155 million. It 
was $100 million over budget, and completed 5 years late.
    Ms. Speier. Who is the contractor on that?
    Mr. Sopko. I don't have that data handy. But I will have to 
get back to you.
    Ms. Speier. $100 million over budget?
    Mr. Sopko. That is correct.
    Ms. Speier. And who was watching the store on that one?
    Mr. Sopko. Well, I think it was the, and I have to double-
check, maybe Ms. Abizaid would know who was responsible. It was 
either an Air Force contract or the Corps of Engineers, I don't 
know who in the military----
    Ms. Speier. Could you get back to us on that?
    Mr. Sopko. Oh, absolutely. Happy to do that.
    [The information referred to can be found in the Appendix 
on page 99.]
    Ms. Speier. The maintenance cost, is that going to be able 
to be supported?
    Mr. Sopko. Well, I wouldn't know since the Afghan national, 
I mean, the Afghan Government can't pay for their military, I 
don't know if they can pay for the O&M [operation and 
maintenance] costs which are about $2.6, $3 million a year to 
maintain that building. That is our best estimate.
    Ms. Speier. So if they don't have the money to maintain 
that building, the building will be a white elephant in short 
order?
    Mr. Sopko. Well, we will pay for it, like we are paying for 
most of the other O&M.
    Ms. Speier. How about the Ministry of Interior, did we just 
build them a new facility?
    Mr. Sopko. We are in the process of building them a brand 
new facility which I visited. And that should be completed 
soon, I think at the cost of about $100 million.
    Ms. Speier. And is that on budget?
    Mr. Sopko. No. But I don't have those exact figures since 
it is not finished.
    Ms. Speier. So the ministries, the ministers want lavish 
facilities. And so we say, okay. And we build them. Do we 
condition the construction of these buildings on any 
accountability?
    Mr. Sopko. Not that I know of. And that is an issue. I 
remember having a lengthy conversation with General Semonite 
who ran CSTC-A, who said that prior to 2013, we did not have 
any conditionality on the money that CSTC-A was spending or 
giving to GIROA [Government of the Islamic Republic of 
Afghanistan]. So I think basically 2013 and then he was a big 
advocate of conditionality. But I think these buildings, the 
construction started before he got there.
    Ms. Speier. So moving forward, would you recommend that 
there be conditionality on the construction of any palace for--
--
    Mr. Sopko. I agree fully with that. And, again, this is 
something I have had long conversations with General Semonite 
who used to run CSTC-A, he has now been replaced. And it was 
the whole issue he had, and I thought it was very good, called 
smart conditionality. You can't stop giving the Afghan National 
Security Forces guns or bullets because they will lose the war. 
But identify the shiny objects that the local official wants, 
and then focus on that as your condition. That was General 
Semonite's approach to smart conditionality. And I think it is 
something we should continue following.
    Ms. Speier. Okay. Mr. Chairman, I don't know if you intend 
to do another round. I don't want to continue to ask questions 
without giving you the opportunity to----
    Mr. Scott [presiding.] I have a couple brief ones, but I 
don't have anything long. I will be happy to go briefly and 
then turn it back over to you. And then we will close out.
    Ms. Speier. Okay.
    Mr. Scott. Mr. Sopko, Mr. Child, this may be more along the 
lines of suggestions that you could make. But in most vehicles 
in America that you buy now, you can call the manufacturers, if 
the vehicle is stolen, and they can tell you exactly where it 
is. And they can actually shut the vehicle down so that it can 
be recovered. It seems to me that we could use the same types 
of technology in some of our military equipment, that if the 
equipment ends up in the hands of somebody we don't want to 
have it, that we can stop that equipment from being used 
against us with stuff that we have in every GM or Ford vehicle 
in the country right now.
    Just a suggestion from someone it bothers greatly to see 
our enemies riding around in vehicles that the United States 
purchased. We are going to be pulling from 9,800 down to 5,500 
uniformed personnel over the next 10\1/2\ months. That is the 
current plan. Is that correct?
    Colonel Michael. Yes, sir.
    Mr. Scott. That is approximately 50 percent of the men and 
women that we have in uniform. I want to go back to the issue 
of the contractors. How many contractors do we intend to hire 
over the next 11 months to replace the work that our men and 
women in uniform are performing? And will those contractors be 
predominantly from the United States? Or will they be local?
    Colonel Michael. Sir, we don't have an exact number of 
contractors we are looking to hire. And it is not, you know, to 
replace, you know, the 5,500 is really designed to accomplish 
exactly what we need from our military. So as we draw down, we 
are not just increasing contractors to replace the fact that we 
have drawn down the military. The assessment is as we go 
forward, we need to focus on a regional counterterrorism 
platform, as you talked about, a regional threat. It has 
regional, is based out of Kabul in the south, in the east. And 
that gives us the capability to surge capacity if we need to. 
And it gives us the capability to address any threats.
    In addition, it focuses advise and assist at the 
ministerial level and at the Afghan security institutions, that 
focuses advise and assist at the critical capabilities that we 
think we need long-term CAS, the Afghan Air Force, and then 
also the Afghan special security forces.
    So the number of military is, the assessment is that is 
exactly what we need. Obviously, we will also be able to 
leverage contractors. But the intent was not to draw down 
military and just to replace them with contractors, the number 
of military's assessment of what we think we will need.
    Mr. Scott. But you understand the point. I mean, soldiers 
that I talk with were like, you know, they say we are drawing 
down, we are losing uniform personnel. But in the end, we are 
putting other people in there doing the exact same job. And 
contractors aren't necessarily carrying rifles. Many of them 
are operating on the equipment, maintenance, and other things. 
But I think the soldiers who are flying the aircraft prefer to 
have the men and women that are taking care of them in the 
United States. And I would point out on the A-29 program, it is 
not just training the pilots. When they come to the United 
States, they bring the maintenance people as well. And so we 
are sending the whole crew back to take care of that system. I 
hope we get it to you sooner rather than later. I don't have 
any further questions. I will turn it back over to Ms. Speier 
if she has any.
    Ms. Speier. Thank you, Mr. Scott. One of the issues that 
many of you have raised, that General Campbell raised, was the 
fact that the ANDSF have fallen short in terms of their 
aviation capabilities. Part of it was referenced by Mr. Scott 
in terms of getting the actual platforms there. But it appears 
that part of the problem is that you are dealing with a 
population that, for the most part, is illiterate.
    So I would like your thoughts on whether or not we are 
bringing in equipment that is too sophisticated for the 
population that we are trying to train in terms of the air 
force to be able to commandeer these aircraft.
    Ms. Abizaid. Thanks for the question, ma'am. Human capital 
shortages are significant when we talk about the aviation 
capability that the Afghan Air Force needs. And it is one of 
the drivers as we look at how we should build a force that the 
Afghan Government can actually afford. We do focus literacy 
training, we do focus technical training an those high-end 
skills that are associated with aviation maintenance, that are 
associated with the piloting of the aircraft to the key 
population that we think is going to be necessary for the 
Afghans to be able to operate the air force that they need. But 
in terms of the sophistication of the system, I think what we 
are trying to do is establish a contracted logistics support 
system that both incorporates, you know, contracted maintenance 
that we, the United States military, often uses for our own 
sophisticated systems; but also increases the training of 
Afghans to be able to increasingly do the maintenance on their 
own, so it becomes a more organic capability. We are aware, 
again, of those human capital shortages. And that is a key 
driving factor in how we balance and plan for the air force 
that is actually absorbable.
    Ms. Speier. Mr. Sopko.
    Mr. Sopko. Congresswoman, I think you are raising a really 
critical point. And it goes beyond just literacy. It goes back 
to the sufficiency of our resources that General Campbell and 
General Nicholson have. Due to a lack of data, we do not know 
right now how many ANDSF personnel are literate. Our best 
estimate is it is less than 30 percent. And why? Because even 
though we spent $200 million in literacy training, CSTC-A does 
not have the ability because they don't have the resources to 
measure the effectiveness of the literacy program and determine 
the extent to which overall literacy in ANDSF has improved. 
Remember, we transitioned the literacy program to the Afghans. 
And once we did that, we lost all visibility. So we don't know 
how many people have been trained, but, more importantly, how 
many of those soldiers and police we trained are still in the 
military.
    And we make, as you know, our quarterly report is the 
largest data call that goes out every year to the U.S. 
Government, or every quarter, on what is going on. And when we 
ask these questions, we are not getting answers anymore because 
CSTC-A, because our resources in the field are not there to 
answer them.
    So you are on to a very important point that goes beyond 
just the literacy issue. It goes to the heart of the issue and 
that is, do we have adequate resources to understand the 
capabilities of the ANDSF?
    Ms. Speier. Thank you. Anyone else want to comment on that? 
All right. Compared to 2 years ago, I think the threat to our 
personnel who are serving in Afghanistan has grown. And I am 
particularly concerned about our embassy and the inability of 
our personnel to move around the city of Kabul or anywhere 
else. So my first question is, do you think that the danger 
there has increased? And what, if anything, can we do to 
mitigate those concerns?
    Ms. Abizaid. So since the drawdown of U.S. and coalition 
forces, the security environment in Kabul I think in general 
has decreased. Some of that is the withdrawal also came with it 
a lack of capital going into the city. And so some of the 
security environment is influenced not by the insurgent threat, 
but sort of the economic instability and, you know, increased 
threats of kidnappings and other things in country. So no 
question, the security environment is diminished in Kabul. 
There are different statistics that indicate that the high 
profile attacks are actually down overall from last year to 
this year. But, you know, what we are very focused on, from the 
DOD perspective, but I think it also affects State, is taking 
the precautionary measures to ensure that those that are 
serving in Afghanistan on our behalf are adequately protected.
    There are different costs associated with ground movements 
that we can defray by doing more air movements. And so that is 
one of the calculations that we make in terms of how much 
access and how much freedom of movement we ask those personnel 
that are serving in country to sort of take when they are 
moving around the city. But no question, it is a difficult 
security environment and one that we are very focused, as a 
first order of business, on ensuring the force protection of 
those that are serving there
    Ms. Speier. Colonel Michael, are people in the embassy 
moving outside the embassy on foot at all?
    Colonel Michael. Primarily when they move, it is by 
vehicles. There are a couple spots close to the embassy where 
people walk. But for the most part, if you are moving out of 
the embassy or you are moving out of any military compound, it 
is by vehicles.
    Ms. Speier. Is it by vehicles?
    Colonel Michael. Yes, ma'am.
    Ms. Abizaid. Ma'am, it is both vehicles and air movements, 
though the air movements have increased over the last year.
    Ms. Speier. So the question becomes, what can they do if 
they are really isolated within the embassy compound? And are 
we placing them at risk by keeping them there?
    Ms. Abizaid. I would defer to State. They are going to be 
able to tell you the frequency of their movements. I would say 
they are not isolated. We at RS, in Resolute Support and USFOR-
A [United States Forces-Afghanistan] are not isolated at 
Resolute Support headquarters. The embassy is not isolated at 
the embassy. A lot of the government facilities that they need 
to visit are within the Green Zone, the International Zone, 
where there is a good deal of safety and ability to move 
around, to go to the MOD headquarters building, to go to the 
MOI headquarters building. So our advisers are getting out and 
about. My understanding is that State Department employees are 
getting out and about and engaging with their Afghan partners 
on those aspects of our relationship that are most critical.
    Ms. Speier. Mr. Sopko.
    Mr. Sopko. I would beg to differ a little bit with my 
colleague in one respect. They are getting about but it is very 
limited. And we don't really have an embassy presence to a 
great extent outside of Kabul. We used to have senior civilian 
representatives located around the country. We no longer have 
those people there. We still may have a military presence in 
some of these bases. But we don't have the civilian presence.
    I go there on a regular basis. And I talk to my colleagues, 
not only my staff, we have about 50, but also talking to State 
and AID officials. And they are not getting out. There are 
people who are assigned to our embassy who never leave the 
embassy, except to go for R&R [rest and recuperation] because 
they can't get out.
    The last time I was in country, went over to the ministry 
of narcotics. And the State Department officials from I&L 
[Installations and Logistics] have never gotten to the ministry 
of narcotics because of the security situation. Now, I don't 
want to criticize our security people. As Ms. Abizaid has said, 
they are very concerned about the safety of our American 
troops, our American civilians, our American contractors. And I 
defer to them on security.
    So I am not questioning these security things. But the 
reality of the situation is you can get assigned to Afghanistan 
in the embassy or AID, and you never leave the embassy. Now, 
that doesn't mean we should shut down, because doing diplomacy 
is not risk free. Just like a soldier takes a risk when he puts 
that uniform on and goes overseas, the same thing for AID and 
State employees, and DOD IG people and my staff, it is not risk 
free. You want to try to measure that risk. But the risk is 
taking its toll on the ability to advise and assist, to train, 
and to get out and oversee the money. That is the reality of 
the situation there.
    Ms. Speier. I really appreciate your candor. Because I 
think for many of our colleagues, there is an expectation that 
there is movement and that it is less dire, frankly, than I 
think it is. And the fact that so many of our personnel there 
are really not able to move outside of being transferred by air 
is, should be of deep concern to us. Mr. Child, do you have any 
further comments on that?
    Mr. Child. I think Mr. Sopko explained it very well. That 
has certainly been my experience and our staff.
    Ms. Speier. Mr. Chairman, I have one last question but it 
is a big one. I would like to ask each member of the panel to 
give me two examples of success in Afghanistan, and two 
examples of failure.
    Ms. Abizaid. I will start.
    Ms. Speier. Okay.
    Ms. Abizaid. So two examples of success, first of all, I 
think that this fighting season, we have talked a lot about the 
problems that we are seeing in Helmand with the 215th Corps. We 
have talked a lot about the concerns that we saw in Kunduz when 
it temporarily fell to the Taliban. What we talked less about 
is the successes that we have seen from other elements of the 
Afghan National Security Forces. The 203rd Corps, importantly, 
one of the corps that we don't cover in as a matter of sort of 
daily contact----
    Ms. Speier. Could you repeat that again? What is it called?
    Ms. Abizaid. The 203rd Corps, which operates in eastern and 
southeastern Afghanistan, did a very good job this fighting 
season addressing what is a dynamic security environment. They 
had ISIL threats to deal with, Al Qaeda threats to deal with. 
They had Taliban threats to deal with. They conducted a number 
of clearing operations that were multi-pillar, you know, cross, 
across multiple different aspects of the complicated force. And 
they did quite well--in Operation Iron Triangle, specifically.
    I would also say that the special operations capability 
that the Afghan National Security Forces are displaying and, in 
particular, their aviation capability that supports it has been 
a critical aspect of this fighting season, and the one place 
where we are sure that that investment is paying off. They 
have, they were critical in retaking Kunduz after it 
temporarily fell to the Taliban. And they have been critical in 
partnered operations like that, which we partnered with them in 
Kandahar to disrupt a very significantly sized Al Qaeda in the 
Indian Subcontinent training facility.
    So showing the investment in that partnership, we really do 
see that displayed by that core capability and the special 
operations capability and the aviation capability in 
particular. Now, I have mentioned some of the difficulties that 
we experienced this fighting season. I think that other aspects 
of what we do in Afghanistan are also a mixed bag.
    There have been very big successes, I think, in our 
relationship with the Afghan Government to counter corruption. 
I think we have a partner in President Ghani who is very 
focused on being able to have control over those aspects of the 
government that are prone to corruption. And he wants us to 
work together to figure out how to discipline the system.
    That being said, as we have seen in places like Helmand, 
corruption is a significant problem. As we see with things like 
ghost soldiers, that is a problem. And so we are all focused 
together and I think for the first time in a very real way with 
our Afghan partners in addressing that challenge.
    Ms. Speier. Thank you. Mr. Breedlove.
    Mr. Breedlove. It is a great question, ma'am. Thank you. I 
would keep this very simple. So two examples of success, I will 
take this at a strategic and a more operational level. At the 
strategic level, I think a measure of success would be seeing 
the fracture of the Taliban leadership. And that may also be 
precipitated, for example, by peace talks or negotiations 
between Afghans. Operationally, it would be a very public, or 
publicized operational defeats of the insurgency in the field 
by Afghan security forces.
    My two examples of failure would just be the exact opposite 
of those two coins I just highlighted to you. So at the 
operational level, that would be the capture, or multiple 
captures of several provincial capitals inside Afghanistan. And 
at a strategic level, that would be seeing the fracture of the 
political elites, that destabilizes the government, and may be 
a presage to civil conflict again. Thank you.
    Ms. Speier. Thank you. Colonel Michael.
    Colonel Michael. Ma'am, as soon as we look at successes, I 
would say one success is just the ownership that the ANDSF has 
taken. As we said, this is a force here that is fully 
responsible. You know, the primary land force and the ownership 
that they took, I think, and effects that they have had this 
year. Not a key success, I would say, would be the ALP [Afghan 
Local Police] program. Even though it is not perfect and there 
are areas of the ALP program that we have to work, we have seen 
some key successes there. One of the things that is significant 
about the ALP program is that the folks are from the local 
area.
    So wherever you find ALP, they are properly secured and 
tied in with the rest of the Afghan security. You almost find 
green bubbles are created because they know who should be 
there, who shouldn't. And it displaces the enemy. The enemy is 
no longer [able] to hide in plain sight.
    One of the things I think that, failures and things that 
they have got to work on, you know, the ability to maintain 
some of the small persistent operations that is required to put 
pressure on the Taliban.
    So to do well in the big multicorps operations, but the 
ones that are really, that have the most impact are the ones 
that are really being done at the district level by kandak and 
the ones that are not telegraphed. In big operations, a lot of 
times the enemy can understand that it is coming and have the 
ability to shift.
    And then the final thing, I think, that they need to--that 
they can improve and do better is anticipating where the enemy 
is going to be. So, for example, you know, we do well by 
typically defending in the east and the south. What we saw this 
year, you know, some attacks in the north, Kunduz was an 
example and some attacks in the west. So being able to 
anticipate and then responding and reacting a little bit 
quicker, you know, when the enemy does something that is not 
telegraphed or unexpected.
    Ms. Speier. Thank you.
    Mr. Sopko.
    Mr. Sopko. I would like to follow up on Assistant Secretary 
Abizaid's comments. And I think the two successes that I would 
like to highlight actually deal with the cooperation with the 
new, or national unity government. And one has to do with 
conditionality. General Semonite, General Davis, and General 
Campbell have insisted upon conditionality. They have worked 
very closely with the new unity government. And I actually met 
with President Ghani, and he says, I accept conditionality. I 
want conditionality. Let's work together. And I think that is a 
great success.
    The prior regime wasn't interested in conditionality, but 
the new regime is. And so General Davis, General Semonite, and 
General Campbell have really stepped up to the plate and hit a 
home run on that. The second success is along the same line, 
and I think it is when we work together, we really do succeed. 
And that is when my agents uncovered the price-fixing for the 
$1 billion MOD fuel case, we immediately went to General 
Campbell, we went to General Semonite, we explained what we had 
uncovered, because we actually had information of the 
conspiracy in Dubai to rig the price, which was going to cost 
the Afghans an extra $250 million, which means it was going to 
cost the U.S.
    They went over as a team. General Semonite and my 
investigators briefed the President. The President merely shut 
down the contract, fired some generals, did an investigation, 
and then set up a procurement commission that they are looking 
at other questionable direct assistance contracts, and that is 
fantastic. That is a success.
    On the failures, Madam Congresswoman, there are so many. 
But I think one we have ignored up to now and is the 800-pound 
gorilla in the room, and that is the $8 billion we have spent 
on counternarcotics, and it has been a total abject failure. 
The only reason the amount of narcotics coming out of 
Afghanistan are lower this year than last year, has absolutely 
nothing to do with any of our programs or that $8 billion. It 
has to do with disease and weather.
    And that is the 800-pound gorilla. If we ignore that, what 
will happen is what Ashraf Ghani warned us about years ago, 
Afghanistan will become a narcoterrorist state. And I have not 
seen anything announced by the embassy that would somehow stop 
that.
    The other issue, which I think is an abject failure, and 
that is, we really don't know what capabilities are of the 
Afghan National Security Forces. We are guessing. And those are 
two serious failures and serious concerns.
    Ms. Speier. Thank you.
    Mr. Child. Ma'am, I would discuss as success the 
intersection of what I think is a strategic improvement based 
on oversight, and that is beginning with Major General Michael 
Williamson, as to CSTC-A, sought out from our organization a 
look, a hard look, at both the NATO trust fund and the initial 
direct funding challenge. And the surprising thing, he was able 
to see, and General Dunford as well, President Ghani has said, 
the Taliban is not an existential threat. What is an 
existential threat is a loss of confidence by the contributing 
nations. And General Williamson took our report, which was 
quite negative, identified many, many problems, but the fact 
that the United States has a system of an independent IG 
outside the chain of command reporting only to the Secretary of 
Defense and to Congress that could, therefore, independently 
assess the problems, General Williamson took that to NATO and 
met with contributing nation partners, and it had an impact 
that they could then feel at least there is some independent 
look, and despite the fact that it was bad, it would mean some 
attempt at improvement, and that has continued.
    And Mr. Sopko is a very big part of that, but it has 
continued to the extent of translating our reports into the 
languages--the language of the Afghans, so that they would be 
outbriefed along with the command, and is not simply the 
command saying, this is a problem, and it has to be improved, 
but this is a report that is going to the United States 
Congress that appropriates the fund. So we have had several 
reports like that. We continue the direct funding. That is what 
I would say, two positives.
    I would speak only to one negative, and I think it is 
dramatic. It is an example of the tragedy there, all the 
attempts to do good things and to improve.
    On August 5, 2014, I was serving in Bagram and learned that 
Major General Harold Green had been killed. He was trying to 
demonstrate his confidence in the Afghans, did not wear the 
protective equipment. He was meeting with Afghan officials. He 
was a follow-on to General Williamson, who was followed by 
General Semonite, and now to General Davis. And so attempting 
to make a big difference, and he was, in trying to place 
beginning conditionality on matters, he lost his life.
    Ms. Speier. Thank you. Thank you, all, very much for your 
testimony.
    I yield back.
    Mr. Scott. Ma'am, Gentlemen, thank you for being here. I 
can't speak to everyone that we are training, but I can speak 
to the men that we are training in the A-29 mission. I have 
been down there. I have met with them. I can assure you that 
people that are coming through there that are vetted, they are 
educated, and they are capable of carrying out that mission. 
That is one mission.
    But I will speak for that one. And one other suggestion 
might be working with the people in that country, the 
leadership of that country, the drug--the best way to handle 
that drug issue is probably to get some crop dusters over there 
and to spray the crops. And if we want to be careful about how 
much we spend, come to south Georgia. We will sell you one and 
ship it over there at the right price.
    Thank you for being here and for your service.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                           February 12, 2016

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 12, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 12, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MS. SPEIER

    Mr. Sopko. Contract was issued on April 21, 2009 by the Air Force 
Civil Engineer Center (AFCEC), previously the Air Force Center for 
Engineering and the Environment, for $48.7 million to Innovative 
Technical Solutions, Inc (ISTI). After 14 modifications, the contract 
cost was raised to $107.3 million. Construction work was halted due to 
lack of funds on December 31, 2013.
    On July 30, 2014, AFCEC awarded Gilbane Federal (the new name for 
ITSI) a second $47.4 million contract for building completion by July 
31, 2015.   [See page 24.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 12, 2016

=======================================================================

      

                  QUESTIONS SUBMITTED BY MRS. HARTZLER

    Mrs. Hartzler. In the funding we provide to Afghanistan, $2.1 
billion has been designated for Foreign Military Sales. Since American 
taxpayers are providing these funds, are there protocols or 
instructions which ensure these funds will provide opportunities for 
United States manufacturers and workers? What weapons platforms are 
being sold to the Afghanistan National Defense and Security Forces and 
how does the procurement process work?
    Ms. Abizaid. The Defense Security Cooperation Agency (DSCA) 
executes requirements to procure defense articles for the Afghan 
National Defense and Security Forces (ANDSF) using the Title 10 funds 
provided by Congress for the Afghanistan Security Forces Fund (ASFF) in 
the annual defense appropriations bill. $2.5B of the $3.3B in ASFF 
available to the Department of Defense (DOD) in Fiscal Year (FY) 2015 
is being executed by DSCA. ASFF procurements are accomplished primarily 
by the Military Departments and the Defense Logistics Agency. These 
procurements include defense articles as well as services such as 
training, advising, and maintenance, and are governed by the Defense 
Federal Acquisition Regulation Supplement (DFARS), which generally 
requires full and open competition for contracts.
    Equipment procurements for the ANDSF using ASFF are largely for 
U.S.-made end items. For example, AM General is currently manufacturing 
new up-armored HMMWVs for the Afghan Army to replace battle losses and 
for the Afghan police to provide combat power; more than 300 have been 
delivered in recent months and at least 1,300 more will be delivered 
this year. Other US-made equipment procured using ASFF includes 
Navistar and Oshkosh trucks; Caterpillar tractors; Textron Mobile 
Strike Force Vehicles; MD Helicopters MD530s; Harris and Datron radios; 
uniforms; boots; M4 and M16 rifles; 60 and 81 mm mortars; Mk 19 grenade 
launchers; M240 machine guns; M203 grenade launchers; and ammunition 
for these weapons.
    To clarify, DOD does not ``sell'' defense articles to the Afghan 
government. Instead, Combined Security Transition Command-Afghanistan 
(CSTC-A), in coordination with the leadership of the Afghan Ministries 
of Defense and Interior, identifies and validates ANDSF capabilities 
and requirements, which are transmitted to DSCA in a CSTC-A-endorsed 
Memorandum of Request (MoR). DSCA then assigns the MoR to the 
appropriate implementing agency to undertake contracting for the 
requirements by either using existing or awarding new DOD contracts. 
The items are then procured, delivered to Afghanistan, and transferred 
by CSTC-A to the Afghan government for employment by their forces in 
combat operations.
    Mrs. Hartzler. In light of serious issues concerning the abuse of 
children, there have been statements by DOD indicating protocols have 
been put in place for handling reports of child sexual abuse. Would you 
please explain the protocols and procedures which will prevent these 
incidents from going unreported in the future?
    Does a soldier have the authority to help a child if they have 
direct knowledge abuse is occurring at the time?
    Have incidents occurred on U.S. property?
    Colonel Michael. On September 22, 2015, General Campbell publicly 
stated that he expects that any suspicions of sexual abuse will be 
reported immediately to the chain of command, regardless of who the 
alleged perpetrators or victims are. He further directed that if there 
are any indications that the abuse involves Afghans, a report must be 
forwarded to him through operational channels and copied to the Staff 
Judge Advocate, so that the Afghan government can be advised and 
requested to take action to investigate the allegations. These policies 
and procedures will remain in place under the new Commander, USFOR-A, 
General Nicholson.
    We continue to work to ensure that all U.S. forces in Afghanistan 
understand their responsibilities to report human rights violations, 
and that Afghan leaders understand their responsibilities to develop a 
professional force and hold perpetrators accountable for their actions. 
DOD mandates training for U.S. service members to ensure that they 
clearly understand their obligations to respect human dignity and to 
take appropriate action when confronted with suspected violations of 
human rights. Under long-standing principles of law and policy, U.S. 
service members may choose but are not required to intervene in the 
commission of an imminent or ongoing serious offense which they 
observe, including if they witness child abuse, as legally appropriate.
    DOD has and continues to review historical reports to identify any 
allegations of sexual abuse by ANDSF personnel. In this review, DOD has 
not uncovered any alleged incidents that were directly witnessed by 
U.S. forces or had occurred on U.S. or coalition facilities.
    Mrs. Hartzler. In the funding we provide to Afghanistan, $2.1 
billion has been designated for Foreign Military Sales. Since American 
tax payers are providing these funds, are there protocols or 
instructions which ensure these funds will provide opportunities for 
United States manufacturers and workers? What weapons platforms are 
being sold to the Afghanistan National Defense and Security Forces and 
how does the procurement process work?
    Colonel Michael. The pseudo-Foreign Military Sales (FMS) process to 
procure defense articles for the Afghan National Defense and Security 
Forces (ANDSF) is governed by the Defense Federal Acquisition 
Regulation Supplement, which generally requires full and open 
competition for contracts.
    FMS cases are typically funded either with the participating 
countries' organic resources or by Foreign Military Financing (FMF) 
funds that are subject to Title 22 requirements. Title 22 funding must 
be spent on U.S. materiel and services, with limited waiver authority, 
whereas host nations determine how their funds will be spent within the 
FMS process. Equipment procurements for the ANDSF using Afghanistan 
Security Forces Fund are largely for US-produced end items. Examples 
include AM General HMMWVs; Navistar and Oshkosh trucks; Caterpillar 
tractors; Textron Mobile Strike Force Vehicles; MD530s Helicopters; 
Harris and Datron radios; uniforms; boots; M4 and M16 rifles; 60 mm and 
81 mm mortars; Mk 19 grenade launchers; M240 machine guns; M203 grenade 
launchers; and ammunition.
    The pseudo-FMS process through which these procurements are made 
does not involve ``selling'' defense articles to the Afghan government. 
Instead, Combined Security Transition Command-Afghanistan (CSTC-A,) in 
coordination with the leadership of the Afghan Ministries of Defense 
and Interior, identifies and validates ANDSF capabilities and/or 
requirements, which are transmitted to the Defense Security Cooperation 
Agency (DSCA) in a CSTC-A-endorsed Memoranda of Request (MoR). DSCA 
then assigns the MoR to the appropriate Service Component Implementing 
Agency to undertake contracting requirements. It is important to note 
that the pseudo-FMS process is not limited to the procurement of 
defense articles or end-items but also includes requirements related to 
training, maintenance, spare parts, and other long-term sustainment.
    Since 2009, the Afghan security forces have spent almost $1.5 
billion in FMF funds, all of which were spent on U.S. defense articles 
and services. The Afghan government currently has $25 million in 
uncommitted FMF funds available.

                                  [all]
</pre></body></html>
